          Report No. D-2011-047                           March 2, 2011




             Improvements Needed in Contract
              Administration of the Subsistence
           Prime Vendor Contract for Afghanistan




                                         Warning
“This report contains contractor information that may be company confidential or
proprietary. Section 1905, title 18, United States Code, and section 423, title 41, United
States Code, [2009] provide specific penalties for the unauthorized disclosure of company
confidential or proprietary information. You must safeguard this report in accordance
with DoD Regulation 5400.7_R, “DoD Freedom of information act (FOIA) Program,”
January 2, 2008."

"Portions or all of the information contained in this document is exempt from public
release under section 552(b)(4), Title 5, United States Code, [2010].”
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
COR                           Contracting Officer’s Representative
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
DLA                           Defense Logistics Agency
FAR                           Federal Acquisition Regulation
GFM                           Government-Furnished Material
MPA                           Military Personnel, Army
OMA                           Operation and Maintenance, Army
PV                            Prime Vendor
QASP                          Quality Assurance Surveillance Plan
STORES                        Subsistence Total Order and Receipt Electronic System
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFE NSE 

                                  400 ARMY NAVY DR IVE 

                             ARLINGTON , VIRGIN IA 22202-4704 



                                                                              MAR      2 2011

MEMORANDUM FOR COMMANDER, DEFENSE LOGISTICS AGENCY
                 TROOP SUPPORT


SUBJECT: 	 Improvements Needed in Contract Administration of the Subsistence Prime
           Vendor Contract for Afghanistan (Report No. 0-20 I 1-047)

We are providing this report for your information and use. As of May 31, 2010, Defense
Logistics Agency Troop Support personnel paid the prime vendor about $3 billion,
including $1.6 billion for food and water and $1.4 billion for nonfood items, such as
transportation and storage costs. The subsistence prime vendor for Afghanistan provided
the food products required by the contract, but subsistence contracting officials at the
Defense Logistics Agency Troop Support did not provide sufficient oversight of contract
costs and performance. We considered management comments on a draft of this report in
preparing the final report.         '

The commcnts from the Senior Procurement Executive, Defense Logistics Agency and
the Acting Commander, Defense Logistics Agency Troop Support, conformed to the
requirements of 000 7650.3. Therefore, no additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).



                                              (1.:_1 , ~.      J -t      \
                                        \.dV A Iice F. Carey
                                         \)   Assistant Inspector General
                                              Readiness, Operations, and Support




                             F8R   8FFI~IA)'    B!l1i! 8N)'Y
Report No. D-2011-047 (Project No. D2009-D000LD-0126.00)	                                  March 2, 2011


                  Results in Brief: Improvements Needed in
                  Contract Administration of the Subsistence
                  Prime Vendor Contract for Afghanistan
                                                                •	 did not validate whether $103.6 million in
What We Did                                                        triwall costs was accurate and chargeable to
As of May 31, 2010, Defense Logistics Agency                       the contract; and
Troop Support personnel paid the prime vendor                   •	 did not monitor the accountability of
about $3 billion, including $1.6 billion for food                  Government-furnished material.
and water and $1.4 billion for nonfood items,
such as transportation and storage costs. Our                   Also, Troop Support personnel billed the Army
objectives were to evaluate the contract                        $56.5 million in transportation, triwall, and
administration of the prime vendor contract for                 storage costs to the incorrect FY appropriation
subsistence in support of Afghanistan and to                    for FYs 2006 through 2009. Correcting the
review whether the assignment of contracting                    billing problems may cause Antideficiency Act
officer’s representatives and execution of the                  violations.
Quality Assurance Surveillance Plan and
procedures were effective.                                      What We Recommend
                                                                We recommend that the Commander, Defense
What We Found                                                   Logistics Agency Troop Support, direct
The subsistence prime vendor for Afghanistan                    responsible officials to:
provided the food products required by the                      •	 establish fair and reasonable prices for
contract. However, subsistence contracting                         transportation, triwall, and airlift costs, and
officials at the Defense Logistics Agency Troop                    modify the contract to incorporate those
Support did not provide sufficient oversight of                    prices;
contract costs and performance. Specifically,
the contracting officer did not adhere to certain               •	 compute and recover overpayments for
provisions of the Federal Acquisition                              transportation and triwall costs. If the current
Regulation and the DoD supplement, or develop                      price for airlift costs from Sharjah, United
a Quality Assurance Surveillance Plan and                          Arab Emirates is found not to be fair and
written procedures to monitor contractor costs                     reasonable, compute and recover airlift
and performance. Our review showed that troop                      overpayments; and
support personnel:                                              •	 refund $56.5 million to the Army that was
•	 overpaid the prime vendor potentially                           not charged to the correct FY appropriations
   $98.4 million in transportation costs;                          and bill the Army $56.5 million to the correct
                                                                   FY appropriations.
• overpaid the prime vendor approximately
   $25.9 million for triwall ∗ costs;                           Management Comments and Our
•	 paid $454.9 million to the prime vendor for                  Response
   airlifting fresh fruit and vegetables without
   incorporating the airlift requirement in the                 The Senior Procurement Executive, Defense
   contract and without documenting whether                     Logistics Agency, and the Acting Commander,
   the airlift price of $3.74 per pound was fair                Defense Logistics Agency Troop Support,
   and reasonable;                                              agreed with our recommendations and provided
                                                                responsive comments on the recommendations.
                                                                No further comments are required. Please see
                                                                the recommendations table on the back of this
                                                                page.
∗
  Triwalls are three-layered corrugated boxes used for
packaging and shipping chilled or frozen food products,
such as fresh fruits and vegetables, ice cream, meat, and
dairy products.


                                                            i
Report No. D-2011-047 (Project No. D2009-D000LD-0126.00)        March 2, 2011


Recommendations Table

Management                      Recommendations            No Additional Comments
                                Requiring Comment          Required
Commander, Defense Logistics                               A and B
Agency Troop Support




                                          ii
Table of Contents


Introduction

      Objectives                                                          1
      Background on Prime Vendor Contract                                 1
      Need to Improve Controls Over Contract Administration               5

Finding A. Better Contract Administration of Prime Vendor
           Costs and Performance Needed                                   6

      Meeting Contract Requirements                                       6
      Noncompliance With the Federal Acquisition Regulation and
        the Defense Federal Acquisition Regulation Supplement             7
      Subsistence Contracting Officials Need to Improve Their
        Monitoring of Prime Vendor Costs and Performance                 13
      Conclusion                                                         18
      Management Comments on the Finding and Our Response                18
      Recommendations, Management Comments, and Our Response             19

Finding B. Appropriation Funds Used for FY-End
           Transportation, Triwall, and Storage Costs Need Corrections   22

      Appropriation Laws and Regulations                                 22
      Army-Appropriated Funds Used                                       22
      Sample of Transportation and Triwall Invoices                      23
      Recommendations, Management Comments, and Our Response             27

Appendices

      A. Scope and Methodology                                           29
           Use of Computer-Processed Data                                29
           Prior Coverage of Subsistence Prime Vendor Program            30
      B. Regulatory Guidance                                             31
      C. Memorandum for Commander, Defense Logistics Agency
           Troop Support                                                 32
      D. Commander, Defense Logistics Agency Troop Support
           Response to Memorandum                                        40

Management Comments

      Defense Logistics Agency Troop Support                             42




                          FOR OFFICIAL USE ONLY
Introduction
Objectives
Our overall objective was to evaluate the contract administration of the Prime
Vendor (PV) contract for subsistence in support of Afghanistan. Specifically, we
reviewed whether the assignment of contracting officer’s representatives (CORs) and
execution of the Quality Assurance Surveillance Plan (QASP) and procedures were
effective for assessing contractor costs and performance.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires:
        thorough audits to identify potential waste, fraud, and abuse in the performance of
        (1) Department of Defense contracts, subcontracts, and task and delivery orders for
        the logistical support of coalition forces in Iraq and Afghanistan; and (2) Federal
        agency contracts, subcontracts, and task and delivery orders for the performance of
        security and reconstruction functions in Iraq and Afghanistan.

Background on Prime Vendor Contract
DoD Directive 5101.10, “DoD Executive Agent (DoD EA) for Subsistence,”
September 27, 2004, established the Director, Defense Logistics Agency (DLA) as the
executive agent for procuring, managing, distributing, and insuring the wholesomeness of
the Class I1 supply (subsistence products) throughout the supply chain. The Director
delegated Class I supply chain responsibilities to DLA Troop Support2 (Troop Support),
specifically the Food Service Customer Business Unit within the Subsistence Directorate.
This unit has overall responsibility for providing worldwide dining hall support to
authorized customers, to include providing contract administration. To assist them in
accomplishing their mission, contracting officials in the Subsistence Directorate
(subsistence contracting officials) use the PV program. PV is a concept of support
whereby a single commercial distributor serves as the major provider of products to
various Federal customers within a geographical region or zone. The subsistence PV
provides commercially available items under a contractual agreement established by the
officials. Usually, the PV is required to deliver the items within a specified period of
time after the order is placed. The PV provides the items either at the cost paid to obtain
them or at a price agreed to in advance by the contracting officer in the Subsistence
Directorate.

The transportation of subsistence items from suppliers/manufacturers located in the
continental United States to the PV’s warehouses in Afghanistan is accomplished under
separate contracts with the U.S. Transportation Command. The PV is responsible for
placing orders with its suppliers and manufacturers and retains ownership of those items
1
  DoD’s supplies are grouped by class to facilitate supply management and planning. Class I supplies are
rations and gratuitous issues of health, morale, and welfare items.
2
  Before July 19, 2010, DLA Troop Support was known as the Defense Supply Center Philadelphia.


                                                    1

until they are accepted by an ordering activity. The U.S. Transportation Command also
provides transportation support for certain types of items, such as soda, milk, and bakery
products that are procured locally within the Middle East.

To provide subsistence support to the Middle East, subsistence contracting officials
issued a single PV solicitation dividing the region into five zones3 and subsequently
issued contracts to four PVs, with one PV providing subsistence support to two zones,
United Arab Emirates and Oman (zone 2) and Djibouti (zone 5).

Prime Vendor Contract and Verbal Change Order
On June 3, 2005, the contracting officer issued the zone 3 PV contract
(SPM300-05-D-3130) to Supreme Foodservice AG4, headquartered in Ziegelbrücke,
Switzerland, to distribute a full line of food and nonfood products to authorized
customers in Afghanistan. The 60-month fixed price, indefinite quantity contract started
December 3, 2005, and was valued at about $726.2 million. When the contract ended in
December 2010, subsistence contracting officials extended the contract for an additional
2 years. At the time the contract was awarded, the PV was required to provide food and
nonfood distribution support to four activities in Afghanistan—Bagram, Kabul, Salerno,
and Kandahar. The cost to deliver the products from the PV’s warehouse in Kabul (see
Figure 1) to the four sites was included in the contract distribution fees which, in addition
to the transportation costs, included the PV’s profit, general and administrative expenses,
and overhead expenses.

                      Figure 1. PV’s Warehouse–Kabul, Afghanistan




3
  Zone 1 covers Iraq, Kuwait, and Jordan; zone 2 covers United Arab Emirates and Oman; zone 3 covers 

Afghanistan; zone 4 covers Bahrain, Qatar and Saudi Arabia; and zone 5 covers Djibouti.

4
  Effective January 2010, Supreme Foodservice AG changed its name to Supreme Foodservice GmbH. 



                                                   2

On August 26, 2005, the contracting officer issued a verbal change order for the PV to
provide the same food and distribution support to 68 additional activities in zone 3.
                                   However, security concerns within the warzone and the
   …security concerns within       austere environment, to include the lack of developed
  the warzone and the austere roadways in Afghanistan, prevented the PV from
     environment…prevented         always using ground transportation to service the
    the PV from always using       additional activities. Consequently, the contracting
     ground transportation…        officer verbally authorized the PV to support the
activities using a combination of fixed-wing aircraft, helicopters, and ground
transportation. As of September 2009, the PV provided food and distribution support to
over 150 ordering activities within Afghanistan. As of May 31, 2010, Troop Support
personnel paid the PV about $3 billion, including $1.6 billion for food and water and
$1.4 billion for nonfood items, such as transportation and storage costs.

In July 2006, the PV submitted an equitable adjustment claim, valued at $33.5 million,
for additional transportation and packaging expenses incurred from December 13, 2005,
through June 30, 2006. Of the $33.5 million, $27.3 million was for employing fixed-
wing aircraft (see Figure 2), helicopters (see Figure 3), and ground transportation to move
subsistence items, and the remaining $6.2 million was for triwalls5 (see Figures 4 and 5).
     Figure 2. Fixed-wing aircraft used to deliver supplies        Figure 3. Helicopter used to deliver supplies




    Figure 4. Triwall used for frozen products                     Figure 5. Triwall used for chilled products




5
 Triwalls are three-layered corrugated boxes used for packaging and shipping chilled or frozen food
products, such as fresh fruits and vegetables, ice cream, meat, and dairy products.


                                                              3

Contract Modification 10: Formalizes Verbal Order
Almost 1 year later, on August 2, 2006, the contracting officer issued contract
modification 10 to formalize the verbal change order. To compensate for the additional
transportation and triwall expenses, contract modification 10 established the provisional
rates as shown in Table 1.
               Table 1. Transportation and Triwall Provisional Rates
                                  Type                   Rate
                             Fixed-Wing             $2.65 per pound
                             Aircraft
                             Helicopter             $8.35 per pound
                             Ground                 $0.48 per pound
                             Triwall Frozen         $302.00 per box
                             Triwall Chilled        $241.00 per box


Contract modification 10 also authorized payments of $25 million, which covered about
75 percent of the PV’s $33.5 million equitable adjustment claim. The remaining
$8.5 million would be paid pending the contracting officer’s verification and approval.

Contract Modification 12: Establishes Reimbursement Rates
On October 10, 2006, the contracting officer issued contract modification 12. In it, both
parties agreed that from July 2006 forward, Troop Support personnel would reimburse
the PV monthly at 75 percent of the rates in contract modification 10, pending the results
of a Defense Contract Audit Agency (DCAA) review, which would be used to definitize
final rates. The reimbursement rates are shown in Table 2.
                      Table 2. Reimbursement Rates at 75 Percent
                                 Type                     Rate
                            Fixed-Wing              $1.99 per pound
                            Aircraft
                            Helicopter              $6.26 per pound
                            Ground                  $0.36 per pound
                            Triwall Frozen          $226.50 per box
                            Triwall Chilled         $180.75 per box


Supplying DoD Customers
Troop Support personnel tracked orders from activities (such as Class I warehouses,
dining facilities, and forward operating bases) using an automated system referred to as
the Subsistence Total Order and Receipt Electronic System (STORES). STORES is
managed by the Subsistence Directorate, and it is designed to automate all installation-
level subsistence ordering and receipting for DoD customers.


                                               4

The PV fills customer orders from its distribution warehouse in Kabul. Authority for
accepting the items is assigned to the ordering activity, which is responsible for ensuring
that the quantities delivered match the quantities recorded on the delivery ticket,
annotating any discrepancies related to short shipments, or items that were damaged or
spoiled to ensure that Troop Support personnel only approve payment for items that were
actually accepted.

The PV invoices Troop Support daily for items delivered and accepted by ordering
activities, weekly for triwall and airlift costs from Sharjah, twice a month for
transportation costs within Afghanistan, and once a month for the storage of
Government-Furnished Material6 (GFM). After Troop Support personnel review and
approve PV invoices for payment, Defense Finance and Accounting Service personnel
pay the PV, and Troop Support personnel bill the Army for the amount that was paid the
PV plus a subsistence surcharge.

Need to Improve Controls Over Contract Administration
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as intended
and to evaluate the effectiveness of the controls. We identified internal control weaknesses
associated with the administration of this contract. Specifically, the contracting officer did
not adhere to provisions of the Federal Acquisition Regulation (FAR) and Defense Federal
Acquisition Regulation Supplement (DFARS), relating to timely definitizing and issuing
change orders, documenting that prices paid were fair and reasonable, monitoring the
accountability of GFM, and making sure that the correct FY appropriation was used to pay
for transportation, triwall, and storage costs. Also, the contracting officer did not develop a
formal QASP and written procedures for oversight of PV costs and performance.
Implementing Recommendations A and B should correct the internal control weaknesses
identified in this report. We will provide a copy of the final report to the senior official
responsible for internal controls in DLA.




6
    Government-furnished material includes feeding rations, such as meal, ready-to-eat, and group rations.


                                                        5

Finding A. Better Contract Administration of
Prime Vendor Costs and Performance Needed
The subsistence PV for Afghanistan provided food and nonfood product distribution
support as required by the contract. However, subsistence contracting officials did not
provide sufficient oversight of the PV contract, valued at more than $3 billion. This
occurred because the contracting officer did not timely definitize or issue contract
modifications, as required by the FAR and DFARS, and did not develop a QASP and
written procedures to monitor the PV’s costs and performance. As a result, Troop
Support personnel:

   	 overpaid the PV potentially $98.4 million for transportation costs within 

      Afghanistan from December 13, 2005, through December 31, 2008; 

   	 overpaid the PV approximately $25.9 million for triwall costs from

      December 13, 2005, through May 28, 2010; 

   	 overbilled the Army approximately $136.2 million (comprised of the
      $98.4 million and $25.9 million of the above mentioned overpayments and Troop
      Support subsistence surcharges of approximately $11.9 million);
   	 paid the PV approximately $454.9 million for services to airlift fresh fruit and
      vegetables from Sharjah, United Arab Emirates to Afghanistan from
      December 13, 2005, through May 28, 2010, without incorporating the airlift
      requirement in the contract or documenting that the airlift price of $3.74 per
      pound was fair and reasonable;
   	 did not know whether the quantity of triwalls billed were accurate or that all of
      the $103.6 million in triwall costs from December 2005 through May 28, 2010,
      were actually chargeable to the contract;
   	 had no assurance that the performance-based distribution fees paid to the PV were
      warranted. For the 12-month period ending October 31, 2008, the fees were
      estimated to be $1.8 million; and
   	 did not monitor the accountability of GFM stored by the PV. The PV stored
      approximately $22.1 million in GFM throughout February 2010.

Meeting Contract Requirements
The subsistence PV for Afghanistan provided food and nonfood product distribution
support as required by the contract. The contract requires the PV to stock items in
sufficient quantities to fill all the ordering activities’ requirements. In addition, the
contract establishes a minimum acceptable performance metric that the PV is required to
meet. The PV is expected to deliver at least 96.5 percent of the items ordered by the
activities. According to the PV semiannual Contractor Performance Assessment Reports
prepared by the contracting officer, the PV’s exceeded the 96.5 percent requirement for
the 48 ½ months ending December 31, 2009.




                                            6

Noncompliance With the Federal Acquisition Regulation and
the Defense Federal Acquisition Regulation Supplement
The contracting officer did not definitize or issue contract modifications in a timely
manner, as required by the FAR and DFARS. Specifically, the contracting officer did not
establish permanent transportation rates in a timely manner and did not document that
higher reimbursement rates for triwalls were fair and reasonable, which resulted in the
PV being potentially overpaid $98.4 million for transportation within Afghanistan,
overpaid approximately $25.9 million for supplying triwalls, and the Army being
overbilled approximately $136.2 million as a result of the overpayments. In addition, the
contracting officer did not issue a contract modification to require airlifting of fresh fruits
and vegetables to Afghanistan for which Troop Support personnel paid approximately
$454.9 million to the PV.

Undefinitized Contract Modification
The contracting officer did not establish permanent transportation rates in a timely manner,
which resulted in the PV being potentially overpaid $98.4 million for transportation within
Afghanistan, and the Army being overbilled approximately $108.5 million.

The verbal change order issued on August 26, 2005, to provide food distribution support
to 68 additional activities remained undefinitized as of December 2010. DFARS
subpart 217.74, “Undefinitized Contract Actions,” requires contract actions to be
definitized within 180 days of a contract modification for additional supplies or services.
DFARS 217.7404-5, “Exceptions,” allows the head of an agency to waive the 180-day
limit if necessary to support a contingency operation. As of April 2010, subsistence
contracting officials had not requested a waiver from the Director, DLA.

Additionally, DFARS 217.7404-6, “Allowable profit,” states that when the final price of
an undefinitized contract action is negotiated after a substantial portion of the required
performance has been completed, the profit allowed should reflect:
   	 any reduced cost risk to the contractor for costs incurred during contract 

      performance before negotiations of the final price; and

   	 the contractor’s reduced cost risk for costs incurred during performance of the 

      remainder of the contract.

(FOUO) The PV’s $33.5 million equitable adjustment claim proposed applying profits of 

   percent for fixed-wing aircraft costs, 
 percent for helicopter costs, and percent for
ground (truck) transportation costs. Subsistence contracting officials, during the
definitization of Modification 10, should analyze the contract’s proposed profit rates to
ensure that the rates reflect any reduced cost risks. Profit rates should reflect the reduced
cost risk as a result of more than 4 years of actual contract performance. According to
cost data provided by the contracting officer as of May 28, 2010, approximately
$830.1 million in transportation services were billed since December 2005. As a result of
not definitizing the change order in a timely manner, the PV was overpaid for
transportation services.


                              FOR OFFICIAL USE ONLY 

                                        7

Transportation Overpayments
Using the cost data from the period of December 13, 2005, through December 31, 2008,
which the PV provided, we estimated that the PV was potentially overpaid $98.4 million
                           for transportation costs within Afghanistan. As illustrated in
        The PV was         Table 3 (page 9), we computed the overpayments by
   potentially overpaid    comparing PV’s incurred costs and proposed profits with the
     $98.4 million for     transportation payments. The PV was overpaid because the
   transportation costs.   contracting officer did not establish permanent transportation
rates in a timely manner and reimbursement rates were significantly higher than the rates
needed to reimburse the vendor for costs and associated profits. In addition, Troop
Support personnel approved payment to the PV for minimum shipping weights per order
(such as 2,000 pounds for deliveries by a certain type of helicopter) when actual weights
were less.

(FOUO) In 2007, the PV was overpaid approximately $19.8 million for helicopter 

transportation costs as shown in column F of Table 3 (page 9). Of the $19.8 million, 

approximately $       million resulted from the helicopter reimbursement rate being much
higher than the rate needed to reimburse the PV for helicopter-related costs and
associated profit. For example, in 2007, the reimbursement rate for helicopters was
$6.26 per pound compared to the PV-claimed cost of $          per pound. The remaining
$ million resulted from payments for orders being based on minimum weights
                               (2,000 pounds) instead of the actual weights when they
     The PV was paid for
                               were less than the minimum weights. To illustrate, in
   transporting 8.8 million
                               2007, the PV was paid for transporting 8.8 million pounds
          pounds by
                               by helicopter. The PV’s records showed that the actual
      helicopter…actual
                               weight transported was only       million pounds. We
   weight transported was
                               multiplied the difference of     million pounds by the
   only     million pounds.
                               helicopter reimbursement rate ($6.26) to calculate the
$ million. As of August 2008, Troop Support personnel discontinued paying for
additional pounds billed above the actual weights.

          On August 22, 2006, the contracting officer requested that the DCAA European
branch audit the PV’s $33.5 million equitable adjustment claim received in July 2006.
Since the PV’s records at that time were maintained in Kabul, the European branch
transferred the request to the DCAA Iraq branch. In March 2007, the PV informed the
Iraq branch that its records had been transferred from Kabul to the United Arab Emirates.
The Iraq branch cancelled the audit in September 2007, but did not advise the European
branch that it again was responsible for the requested audit. About 7 months later, in
May 2008, the contracting officer requested an audit update, which prompted the
European branch to initiate an audit of the PV’s claimed transportation costs of
$81.4 million for 2006 and 2007. In December 2008, DCAA personnel issued their audit
report7 and questioned approximately $         million of the $81.4 million in claimed
transportation costs. Items that DCAA questioned were approximately $             million in
distribution fees, $    million in central overhead costs, $    million in consultancy costs,

7
DCAA Report 2191-2008M17200001, “Report on Audit of Equitable Adjustment Proposal for Charge
Related to Outbound Transportation Effort,” December 19, 2008.

                               FOR OFFICIAL USE ONLY
                                         8

$    million in depreciation, $ million in financing costs, and $        in miscellaneous
costs. As of December 2010, the contracting officer had not finalized the negotiation of
the aforementioned costs with the PV.

The total overpayments will be affected by the contracting officer’s negotiation of the
DCAA questioned costs, establishment of a fixed 5-year reimbursement rate for
transportation within Afghanistan for each mode of transportation, and the establishment
of negotiated minimum order weight requirements.

                  Table 3. Estimated Transportation Overpayments (FOUO)
         A                  B                  C                  D                    E                   F
    Mode/Year              Prime           Prime              Total              Payment to            Amount
                         Vendor’s         Vendor’s        (Column B+C)             Prime              Overpaid3
                         Incurred         Proposed                                Vendor2           (Column E-D)
                           Costs           Profit1
    Fixed Wing/           $                $                  $7,501,236          $8,524,930          $1,023,694
    2006
    Helicopter/                                                 7,634,411         10,793,488            3,159,077
    2006
    Ground/                                                   11,707,335          18,685,800           6,978,465
    2006
    Fixed Wing/                                               11,391,854          17,045,205           5,653,351
    2007
    Helicopter/                                               35,144,863          54,989,478          19,844,615
    2007
    Ground/                                                   17,045,529          32,929,866          15,884,337
    2007
    Fixed Wing/                                               32,302,736          42,451,996          10,149,260
    2008
    Helicopter/                                              102,381,818         132,305,038          29,923,220
    2008
    Ground/                                                   33,212,976          39,026,979           5,814,003
    2008
     Total           $                  $                   $258,322,758         $356,752,780        $98,430,022
1
  The PV’s proposed profit of $      million includes $ million for a fixed-wing aircraft, $    million for a 

helicopters, and $    million for ground transportation.

2
  In accordance with modification 12, Troop Support personnel approved payment of 75 percent of the provisional rates 

agreed to in modification 10. Total payments were obtained from PV’s financial records. 

3
  Amounts will be affected by final settlement of DCAA questioned costs, the establishment of permanent rates, and 

establishment of minimum order weight requirements. 


Estimating transportation overpayments for FYs 2009 and 2010 was not possible because
the PV’s financial records were not readily available. The negotiating approaches
proposed by the contracting officer to resolve DCAA questioned costs and to establish
permanent transportation rates will, identify additional overpayments for FYs 2006
through 2011.




                                      FOR OFFICIAL USE ONLY
                                                9

Triwall Overpayments
Using cost data provided by the contracting officer, we estimated that the PV was
                         overpaid about $25.9 million in triwall costs from the inception
   We estimated that     of the contract through May 28, 2010. We estimated the
      the PV was         overpayment by multiplying costs of $103.6 million for triwalls
    overpaid about       during the period by 25 percent. We did this because Troop
    $25.9 million in     Support personnel approved payment of 100 percent instead of
     triwall costs.      75 percent of triwall rates as stated in modification 12.

In December 2006, the PV sent an e-mail to the contracting officer and claimed that
100 percent of triwall rates were fair and reasonable and that triwalls should not be
included as part of the requested DCAA audit. The PV also requested immediate
payment of the 25 percent of triwall rates withheld to date and asked that future triwall
invoices be reimbursed at the provisional rates in contract modification 10. The
contracting officer promptly agreed with the PV’s request, and authorized the payment of
the 25 percent of triwall costs withheld. However, the contract file did not include
documentation as to how the new reimbursement rates were determined to be fair and
reasonable as prescribed by FAR. FAR 15.406-3, “Documenting the Negotiation,”
prescribes that the contracting officer shall document in the contract file the principal
elements of the negotiated agreement, the purpose of the negotiation, and documentation
of fair and reasonable pricing.

The PV billed and Troop Support personnel approved payment of $302 and $241 instead
of the $226.50 and $180.75 for respective frozen and chilled triwalls. Table 4 lists the
estimated triwall overpayments. The overpayments occurred because the contracting
officer agreed to pay 100 percent of the triwall rates without (1) having the rates audited
by DCAA as both parties agreed to in contract modification 12, (2) documenting in the
contract file the basis for determining that the higher reimbursement rates were fair and
reasonable, and (3) issuing a contract modification to formally incorporate the higher
reimbursement rates in the contract.

                      Table 4. Estimated Overpayments for Triwalls8
                         Fiscal        Prime          Percentage      Amount
                         Year         Vendor’s         Overpaid       Overpaid
                                      Invoiced
                                        Costs
                        2006          $9,582,716        25 percent    $2,395,679
                        2007          16,392,315        25 percent     4,098,079
                        2008          24,192,220        25 percent     6,048,055
                        2009          32,212,538        25 percent     8,053,135
                        2010          21,245,649        25 percent     5,311,412
                         Total     $103,625,438                      $25,906,360



8
 The $25.9 million in estimated overpayments includes $14.0 million that we identified subsequent to
issuing our memorandum on August 7, 2009 (see page 12 of the report).


                                                   10
Since a contract modification was not issued, the terms agreed to in contract modification
12 are still in effect, and as such, the contracting officer should request repayment of the
triwall costs paid in excess of the 75 percent reimbursement rates agreed to in
modification 12.

Overbillings to Army
After Troop Support personnel review and approve PV invoices for payment, Defense
Finance and Accounting Service officials pay the PV, and DLA Finance, Troop Support
personnel bill the Army for the amount paid to the PV plus a subsistence surcharge. We
estimate that DLA Finance, Troop Support personnel overbilled the Army $136.2 million in
transportation and triwall costs. The $136.2 million consists of the following:
   	 $98.4 million overpaid PV for transportation (Table 3),
   	 $25.9 million overpaid PV for triwalls (Table 4), and
   	 $11.9 million in subsistence surcharges that DLA Finance, Troop Support

      personnel billed the Army on those overpayments, as shown in column D of 

      Tables 5 and 6 below. 


               Table 5. Estimated Transportation Overbillings to the Army
                   A             B                    C                   D               E
               Year      Transportation         Subsistence         Subsistence         Total
                           Overpaid1           FY Surcharge         Surcharge2       Overbilled3
                                                    Rate               (B*C)           (B+D)
               2006         $11,161,236        11.10 percent         $1,238,897      $12,400,133
               2007          41,382,303        12.40 percent          5,131,406       46,513,710
               2008          45,886,483         8.00 percent          3,670,919       49,557,402
               Total        $98,430,022                            $10,041,222       $108,471,245
           1
             Amount represents the total from Table 3 that the PV was overpaid.
           2
             We applied subsistence FY surcharge rates (column C) to the year’s overpaid
           transportation cost (column B) to estimate overbillings because records of overpayments
           to PV by FY were not available.
           3
             Estimating overbilling for FYs 2009 and 2010 was not possible because the PV’s
           financial records were not available to calculate possible transportation overpayments.

                       Table 6. Estimated Triwall Overbillings to the Army
                   A              B                    C                      D               E
               Fiscal         Triwalls           Subsistence          Subsistence         Total
               Year          Overpaid1          FY Surcharge          Surcharge        Overbilled
                                                    Rate                (B*C)            (B+D)
          2006               $2,395,679           11.1 percent          $265,920       $2,661,599
          2007                4,098,079           12.4 percent           508,162        4,606,241
          2008                6,048,055            8.0 percent           483,844        6,531,899
          2009                8,053,135            4.6 percent           370,444        8,423,579
          2010                5,311,412            4.6 percent           244,325        5,555,737
           Total            $25,906,360                                $1,872,695     $27,779,055
               1
                Amount represents the total from Table 4 that the PV was overpaid.




                                                          11
DoD OIG’s Memorandum for the Commander, Troop Support
On August 7, 2009, we issued a memorandum for the Commander, Troop Support,
addressing concerns pertaining to overpayments to the PV for transportation and triwall
costs within Afghanistan, along with overbillings of those costs to the Army. See
Appendix C for a copy of the memorandum, and Appendix D for the response provided
by the Commander, Troop Support.

Subsistence contracting officials took preliminary steps to address the overpayments
identified during our review. In response to our recommendations, the Commander,
Troop Support stated that in May 2009 the contracting officer requested that the PV
change their pricing to reflect the lower transportation costs incurred. However, the PV
claimed that because of the number of locations and distances traveled that they were
justified in keeping the rates as is, pending negotiations and final definitization. The
Commander also stated that an audit of triwall costs by the DCAA was requested and that
they expected the results in December 2009. As of April 2010, the contracting officer
informed us that DCAA personnel are awaiting data from the PV in order to complete the
audit. Further, the Commander stated that the contracting officer was currently
negotiating with the PV regarding transportation and triwall costs and upon completion of
the negotiations, all overpayments (difference between reimbursement rates and the
negotiated rates) would be recovered and the Army would be reimbursed accordingly.
However, until the results of the DCAA triwall audit are received, the contracting officer
should not negotiate final triwall rates.

No Airlift Requirement for Fresh Fruit and Vegetables
The contracting officer did not issue a contract modification to require airlift of fresh
                                  fruits and vegetables to Afghanistan for which the PV
    …the PV had been paid         had been paid approximately $454.9 million from
         approximately            December 2005 through May 28, 2010. The PV
   $454.9 million…However,        acquires fresh fruits and vegetables locally from the
     the airlift requirement      United Arab Emirates, airlifts them to Afghanistan, and
   was not incorporated into      bills Troop Support for the transportation costs at a rate
         the contract…            of $3.74 per pound. However, the airlift requirement
was not incorporated into the contract and documentation supporting fair and reasonable
pricing, as prescribed by FAR 15.406, “Documentation,” was not in the contract file. See
Appendix B for FAR guidance.

Since the contract did not include provisions for airlifting fresh fruit and vegetables into
Afghanistan, we questioned subsistence contracting officials about the $3.74 rate. The
officials informed us that the rate was agreed to under a contract with a different vendor
who was providing support for operations in Afghanistan before December 2005. The
current PV was a subcontractor providing the airlift of fresh fruit and vegetables into
Afghanistan under this prior contract. The U.S. Department of Justice issued a criminal
indictment against the other vendor on November 23, 2009, for defrauding the
U.S. Government at various times over the past 6 years. When the $3.74 was agreed to,
subsistence contracting officials were not aware of any potential criminal activity involving



                                            12

the other vendor. We questioned whether the $3.74 rate, in use since December 2005,
was fair and reasonable considering the rate was negotiated with a different vendor.

Subsistence contracting officials informed us that not including the $3.74 rate in the
current contract was an oversight, but since the rate was negotiated on the prior contract,
they considered it to be fair and reasonable. However, when we asked for support, the
officials were unable to provide documentation on how the rate was determined to be fair
and reasonable. In addition, using the rationale that the rate was previously fair and
reasonable, when the prior contractor was involved in questionable contracting practices,
makes little sense.

According to financial records, from December 2005 through May 28, 2010,
approximately $454.9 million in costs were incurred for airlifting services that were not
included in the contract, and were based on a rate that may not be fair and reasonable.
Contracting officials should request a DCAA audit of airlift costs and use the results to
determine whether the $3.74 rate is fair and reasonable, modify the contract to
incorporate the airlift requirement and price, and reconcile any payment differences with
the PV.

Subsistence Contracting Officials Need to Improve Their
Monitoring of Prime Vendor Costs and Performance
The contracting officer did not develop a QASP and written procedures to monitor the
PV’s costs and performance. As a result, subsistence contracting officials did not know
whether the quantity of triwalls billed were accurate or actually chargeable to the
contract, had no assurance that performance based distribution fees paid to the PV were
warranted, and did not know whether GFM stored by the PV was adequately
safeguarded.

The contracting officer formally appointed two qualified CORs in accordance with the
DFARS 201.602-2, “Contracting Officer Responsibilities.” The supplement states that
the contracting officer must designate a properly trained and experienced COR in writing
and specify the extent of the COR’s authority to act on behalf of the contracting officer.
In addition to the two CORs, the contracting officer had contract specialists located at
Troop Support and in Europe to assist in administering and monitoring the PV’s costs and
performance. However, these individuals did not have a QASP or written procedures to
help them monitor such a complex contract.

Quality Assurance Surveillance Plan and Operating Procedures
A QASP provides a systematic, structured method for contracting officials to monitor
contractor performance. The contracting officer did not develop a QASP to monitor
vendor performance because subsistence contracting officials believed that the Contract
Management Plan for OCONUS Subsistence Prime Vendors was the QASP. However,
that plan did not meet FAR requirements for a QASP as detailed in Appendix B. The
Office of Federal Procurement Policy, “A Guide to Best Practices for Contract
Administration,” October 1994, states that a contract management plan should contain a
separate QASP as a subpart.


                                            13

The management plan was generic for all overseas PV subsistence contracts and did not
include a QASP or written procedures to supplement the plan. The management plan
provided a general framework for administering overseas PV subsistence contracts, but
did not provide the specific instructions needed to effectively administer the PV contract
for Afghanistan. Specifically, the plan did not list the work requiring surveillance, the
method of surveillance, the technical requirements, or the specifications for inspections
and testing. For example, the management plan calls for the contracting officer to
monitor the contract on a daily basis, but does not provide specific guidance on how the
monitoring should be performed. As a result, there was no assurance that the PV’s
performance was adequately monitored.

Although there was no QASP, the CORs and contract specialists performed various
monitoring functions. The CORs’ appointment letters were helpful in outlining some
oversight and monitoring functions; however, the letters were not supplemented by
detailed procedures on how the CORs were to accomplish the monitoring functions. For
example, there were no written procedures detailing how to check and verify fill rates or
validate invoices.

The contract solicitation detailed various performance requirements that should be
included in a QASP. For example, the solicitation details 17 PV recurring reports that
must be submitted to the contracting officer. However, since there was no QASP, there
were no procedures for analyzing the reports. According to a COR and a contract
specialist, only 5 of the 17 reports (Fill Rates With Substitutions; Fill Rates Without
Substitutions; Not In Stock, Returned, Damaged, and Mispicked; Small Business
Subcontracting; and Customer Service), were analyzed. However, the analyses were not
documented and appeared to be limited in scope as discussed in the paragraph verifying
fill rates on page 15.

Authorizing Triwall Payments
Subsistence contracting officials did not effectively review the quantities of triwalls being
    DoD has paid      billed by the PV. As a result, DoD has paid $103.6 million for
   $103.6 million     triwalls billed through May 28, 2010, but has no assurance that the
  for triwalls…has 
 triwalls were chargeable to the contract. See Table 4 on page 10.
   no assurance 

                       We reviewed “combined invoices” and supporting documentation
  that the triwalls
                       for $180.5 million of the $302.5 million in airlift and triwall costs
  were chargeable
                       listed on a spreadsheet that a subsistence contracting official
  to the contract.
                       provided us, which listed offline costs incurred from the inception
of the contract through April 24, 2009. Of the $180.5 million in invoices reviewed,
$150.5 million of the invoices was for airlift costs, and the remaining $30 million was for
triwalls.

We did not identify any problems with the authorization of airlift billings. Invoice files
included documentation from STORES that showed contract specialists routinely
compared billing weights on weekly invoices to five customer orders and billing weights
were generally accurate. However, we did identify problems with the authorization of
billings for triwall quantities and for triwalls that were not chargeable to the contract.


                                             14

Subsistence contracting officials did not independently verify that the number of triwalls
billed were correct because customers at forward operating bases were not required to
note the quantity of triwalls received. When we discussed the lack of verification
procedures with the officials, we were informed that contract specialists gauged the
number of triwalls billed based on the average weights transported per triwall. But in
reviewing $30 million of triwall invoices, we saw no evidence that contract specialists
questioned the number of triwalls billed. However, we did note cases where it appeared
that the number of triwalls billed should have been questioned. On some invoices, airlift
charges were deducted for items that were previously billed incorrectly, but triwalls
quantities associated with the items were not deducted. For example, the invoice for the
week ending August 25, 2008, deducted airlift charges for 4,440 pounds, but did not
deduct for the associated triwalls. Similar occurrences were noted on invoices for 16 of
the other 79 weeks we reviewed.

Authorizations of triwall billings also did not ensure that triwalls billed were actually
chargeable to the contract. Subsistence contracting officials understood from the contract
that triwalls delivered by road to the nonforward operating bases identified in the basic
contract were not chargeable to the contract because costs for those triwalls were
included in product distribution fees. However, the contracting officer had not developed
written procedures to ensure that triwall deliveries by road to nonforward operating bases
were excluded from PV invoices. For example, our review of invoices for the week
ending January 24, 2009, showed that the Troop Support personnel paid $1,086 for four
triwalls delivered by road to a nonforward operating base. Before September 2008, such
overbillings may have been routine. According to an e-mail that a contract specialist at
Troop Support Europe and Africa sent to the contracting officer, a review of triwall
billings for the week ending August 23, 2008, showed that the PV had incorrectly billed
for triwalls delivered by road to four nonforward operating bases. The specialist also
estimated that the PV has been overpaid approximately $2 million annually because of
this issue.

Subsequently (for invoices from the end of July through September 2008), the
contracting officer reduced triwall payments by $1.1 million until the full extent of
overbillings could be determined and reconciled with the PV. However, when we asked
about the overpayments reconciliation in April 2010, the contracting officer informed us
that the reconciliation had not been completed because the PV had not provided the
requested data. In response to our query, the contracting officer instructed the PV to
provide a full reconciliation of triwalls delivered by road to nonforward operating bases
since 2006 and to refund any overpayments.

Triwall invoices we reviewed subsequent to September 2008 generally excluded triwalls
delivered by road to the nonforward operating bases, except for the invoice for the week
ending January 24, 2009. However, the contracting officer had not developed any written
procedures for authorizing triwall or airlift payments. The contracting officer needs to
develop written procedures that incorporate requirements to confirm the quantity of
triwall deliveries and verify that triwalls delivered by road to nonforward operating bases
are excluded from billings.



                                            15

Verifying Fill Rates and Performance Based Distribution Fees
(FOUO) The CORs need to document their reviews of the PV’s reported fill rate
calculations. The fill rate calculations are based on the total number of cases shipped and
accepted divided by the total number of cases ordered. The contract allows the PV to be
paid a 5-percent increase in performance based distribution fees for exceeding a
semiannual fill rate (without substitution) of 97.5 percent along with an overall rating of
excellent on the Contractor Performance Assessment Report.9 The 5-percent increase is
in addition to the normal distribution fees. To illustrate, as a result of achieving a
     percent fill rate and an overall performance rating of excellent during the 6-month
period July through December 2008, the PV was entitled to 5-percent higher distribution
fees for the following 6 months. In 2008, we estimated that the PV was paid
approximately $1.8 million10 in performance based distribution fees for exceeding the
97.5 percent fill rate and achieving excellent ratings.

The CORs stated that they review the fill rate metric on a routine basis as part of their
contract administration duties. However, based on data provided by the contracting
                          officer, we estimated that CORs only reviewed about
  CORs only reviewed
                          1.6 percent11 of the orders to determine accuracy of the fill
  about 1.6 percent of
                          rates. When we requested support for the reviews performed,
      the orders to
                          the CORs were unable to provide us with documentation.
  determine accuracy
                          Considering that the annual performance based fee represented
     of the fill rates.
                          approximately $1.8 million in additional costs to the
Government for 2008, we believe that procedures should be established for maintaining
the documentation supporting the review of the fill rates.

Developing Procedures for Validating Transportation Invoices
The contracting officer needs to develop written procedures for validating the PV’s
transportation invoices. Twice a month, the PV submits a transportation invoice. The
invoice bills for the total weight of deliveries made through ground and air to the various
ordering activities. To validate the PV’s invoice, the CORs stated that for each invoice
they routinely review about 10 orders related to ground transportation and 6 orders
related to air deliveries. Their reviews generally consisted of obtaining the billed weights
for the individual orders, comparing them to the signed customer invoices, and annotating
any differences. However, we had trouble reconciling the documents that the CORs

9
 Contractor Performance Assessment Report is a semiannual rating prepared by the contracting officer
assessing the PV’s overall performance. There are three primary categories that the contracting officer
rates: (1) quality of service, (2) meeting schedule delivery date, and (3) general business relations. The fill
rate is reported in the quality of service section of the rating.
10
   Subsistence contracting officials were unable to provide the total paid for performance based distribution
fees. However one of the officials provided us data showing that the average monthly distribution fee for
November 2007 through October 2008 (including the five percent performance base increase) was
$3,081,455. We extrapolated the data, and estimated that the average monthly performance fee would be
$146,736 ($3,081,455 – ($3,081,455/ 1.05)) or $1,760,832 a year ($146,736 * 12 months).
11
   The contracting officer informed us that during the 11-month period ending August 26, 2009, there were
21,339 orders filled for an average of 1,940 per month (21,339 / 11). The contracting officer stated that the
CORs spot checked approximately 32 orders per month. Dividing the 32 orders reviewed by the
1,940 average results in a 1.6 percent rate of review.

                                    FOR OFFICIAL USE ONLY
                                              16

reviewed. For example, the weight on an invoice for an April 2009 air delivery showed
311 pounds transported while Troop Support personnel were billed 356 pounds. The
COR accepted the billed weight of 356 pounds. As of March 2010, the COR was unable
to provide an explanation for the difference.

In addition, in September 2008, Troop Support contracting officials identified a problem
where the PV had overbilled for minimum order weights for deliveries made by a
particular type of helicopter. Between May 2008 and August 2008, the PV charged
Troop Support 5,512 pounds as the minimum order weight instead of 2,000 pounds. The
                            maximum capacity limit for this model of helicopter could not
        Had written         accommodate orders of 5,512 pounds. At the request of a
     procedures been        contract specialist, the PV researched the overbillings and
      established for       determined that Troop Support was overbilled a total of
   reviewing invoices,      $4.1 million, which was subsequently reimbursed in
   the CORs may have        November 2008. Before April 2009, the COR’s validation of
       prevented the        transportation invoices did not include a review of minimum
      overpayments.         order weights. Had written procedures been established for
reviewing invoices, the CORs may have prevented the overpayments.

Accountability of Government-Furnished Material
Subsistence contracting officials did not monitor the accountability of GFM stored by the
PV. The terms of the contract calls for the PV to store GFM. Although the Army
technically owns the material, the officials should provide oversight of the GFM as part
of the overall administration of the contract. The CORs are also responsible for
validating that the GFM storage costs are accurate. According to the contract, the PV is
paid for storage of GFM that has been in their possession for greater than 30 days. There
is no storage charge for the first 30 days. The CORs randomly selected storage items that
were billed once a month and relied on the PV’s inventory system to ensure that the count
and corresponding storage costs were accurate. In addition, the CORs also checked
whether stored items were issued on a first-in, first-out basis. From December 2005
through May 28, 2010, the PV was paid approximately $35.8 million for storing GFM.

The contracting officer appointed two CORs to monitor costs and performance at the
PV’s warehouse. However, the contracting officer did not designate either of them to
monitor GFM stored at the warehouse. Neither of the two COR appointment letters listed
responsibilities for monitoring GFM. During February 2010, the PV stored, on average,
about $22.1 million in GFM inventory. The contracting officer should ensure GFM is
adequately safeguarded by appointing a Property Administrator and developing written
procedures to monitor the accountability of GFM.

Action Taken by Contracting Officer to Mitigate Lack of a Quality
Assurance Surveillance Program
During the audit, the contracting officer initiated COR checklists to monitor fill rate
compliance, inventory management, inspection procedures, security, and sanitation and
pest control. The CORs have been using these checklists since March 24, 2009. While
the checklists are a step in the right direction for contract oversight because of the


                                           17

magnitude of this contract and to ensure continuous and effective contractor surveillance,
Troop Support should develop a formal QASP. In addition, the contracting officer
should develop written procedures implementing the checklists, specifying work
requiring surveillance, and specifying the methods of surveillance.

Conclusion
The subsistence PV for Afghanistan provided food and nonfood product distribution
support required by the contract. However, the contracting officer did not adhere to
certain provisions of the FAR and DFARS, to include (1) timely definitizing and issuing
contract modifications and (2) developing a QASP and written procedures to monitor
contractor costs and performance. As a result, the PV was overpaid about $124.3 million
in transportation and triwall costs, and Troop Support personnel paid the PV about
$454.9 million for airlifting fresh fruit and vegetables without the airlift requirement
being incorporated in the contract or documenting whether the airlift price of $3.74 per
pound was fair and reasonable. In addition, subsistence contracting officials did not
validate whether $103.6 million in triwall costs was accurate and chargeable to the
contract, and did not monitor the accountability of GFM. Consequently, the Commander
Troop Support should review the overall contract administration and initiate, as
appropriate, any administrative actions warranted by the review.

Management Comments on the Finding and Our
Response
The Senior Procurement Executive, DLA, provided the response for the Acting
Commander, DLA Troop Support. The Acting Commander concurred with our findings
and recommendations and stated that DLA Troop Support had implemented corrective
actions for some of the recommendations and indicated that the other recommendations
would require more planning and coordination to execute. While the Acting Commander
agreed with the overall findings, he provided some comments for consideration.

Transportation Overpayment
The Acting Commander, DLA Troop Support requested that we use the phrase
“potentially overpaid,” when referring to the approximately $98.4 million in transportation
overpayments made to the PV from December 13, 2005, through December 31, 2008.
The Acting Commander stated that both Troop Support and the PV are continuing efforts
to resolve the issue through negotiations. For the full text of the Acting Commander,
Troop Support comments, see the Management Comments section of the report.

Our Response
We recognize that the exact amount of the overpayment will be affected by the
contracting officer’s negotiating approaches to resolve DCAA questioned costs and to
establish permanent transportation rates for FYs 2006 through 2011. Since the exact
amount of overpayment will not be known until the final rates are negotiated, we revised
the report to address the Acting Commander’s request.




                                            18

Reasonableness of Airlift Rate
The Acting Commander, Troop Support stated that while documentation for the fair and
reasonable price determination was not available for the audit team to analyze, the rate
used to pay the PV to airlift fresh fruit and vegetables to Afghanistan was based on
comparisons to existing U.S. Transportation Command tender rates utilizing similar
routes.

Our Response
Although the documentation for evaluating the fair and reasonableness of the $3.74 rate
for airlifting fresh fruits and vegetables into Afghanistan was not available for review, the
comments provided by Troop Support to recommendation A.2, satisfy the intent of our
recommendation.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Commander, Defense Logistics Agency Troop
Support, direct the contracting officer for subsistence support in Afghanistan to:
       a. Determine fair and reasonable prices for transportation and triwalls and
use those prices to definitize the August 2005 verbal change order, which was
formalized in Modification 10.
       b. Recover triwall overpayments ($25.9 million as of May 28, 2010) that
were not in accordance with contract modification 12, and use contract
modification 12 reimbursement rates to pay future prime vendor triwall bills, until
such time as fair and reasonable triwall rates are determined and the verbal change
order of August 2005 is definitized.
      c. Compute and recover the overpayments of the difference between the
reimbursement rates paid to the prime vendor and the finalized rates since
December 2005, after the rates are established.
       d. Coordinate with Defense Logistics Agency Finance, Troop Support
personnel to refund the Army for overpayments recovered from the prime vendor
in response to recommendations A.1.c and A.2.c, and associated surcharges that
were applied to the overpayments since December 2005.

Defense Logistics Agency Troop Support Comments
The Acting Commander, Defense Logistics Agency Troop Support agreed and stated that
Troop Support was making every effort to determine fair and reasonable prices to
definitize the August 2005 verbal change order, and that once the rates are finalized,
Troop Support will compute and take actions to recover the difference between the
reimbursement rates paid to the prime vendor and the finalized rates. The Acting
Commander also stated that Troop Support will use contract modification 12 as the basis
for future triwall payments until the contract is definitized, and will make every effort to
recover [triwall] overpayments that were not paid in accordance with contract
modification 12. Further, the Acting Commander stated that Troop Support would make


                                             19

appropriate adjustments with the Army for overpayments [recovered] and associated
surcharges that were applied to the adjustments. Lastly, the Acting Commander stated
that Troop Support anticipates that all recommendations will be fully implemented no
later than December 31, 2011.

Our Response
The Acting Commander, Defense Logistics Agency Troop Support comments are
responsive. No additional comments are required.

A.2. We recommend that the Commander, Defense Logistics Agency Troop
Support, have the contracting officer:
      a. Request assistance from the Defense Contract Audit Agency in
determining a fair and reasonable price for airlift requirements from Sharjah,
United Arab Emirates.
       b. Use the results of the Defense Contract Audit Agency assistance to
determine and document a fair and reasonable price for airlift requirements from
Sharjah into Afghanistan and formally modify the contract to incorporate the airlift
requirement.
        c. Compute the difference between the $3.74 per pound rate paid to the
prime vendor and the finalized airlift rate since December 2005, after the airlift rate
is established. If applicable, recover any differences.

Defense Logistics Agency Troop Support Comments
The Acting Commander, Defense Logistics Agency Troop Support agreed and stated that
Troop Support will request assistance from the Defense Contract Audit Agency and will
use the results to determine and document a fair and reasonable price for airlift
requirements from Sharjah, United Arab Emirates, to Afghanistan. The Acting
Commander also stated that the Contracting Officer would formally modify the contract
to incorporate the airlift requirement. Further, the Acting Commander stated that Troop
Support would compute the difference between the $3.74 per pound rate paid to the
prime and the finalized airlift rate and would attempt to recover any differences. Lastly,
the Acting Commander stated that Troop Support anticipates that all recommendations
will be fully implemented no later than December 31, 2011.

Our Response
The Acting Commander, Defense Logistics Agency Troop Support comments are
responsive. No additional comments are required.

A.3     We recommend that the Commander, Defense Logistics Agency Troop
Support have the contracting officer develop a quality assurance surveillance plan
and written procedures for monitoring the prime vendor’s costs and performance.
The plan and procedures should address areas to include the (1) validation of triwall
invoices, to include verification of the quantity of triwalls delivered and that the
quantity delivered by road to nonforward operating bases are excluded from
billings, (2) verification of fill rates, to include the requirement that reviews of the


                                           20

contract fill rate calculations are documented and retained, and (3) appointment of
a Property Administrator to monitor accountability of Government-furnished
material, to ensure Government property is adequately safeguarded.

Defense Logistics Agency Troop Support Comments
The Acting Commander, Defense Logistics Agency Troop Support agreed and stated that
Troop Support will develop a quality assurance surveillance plan and written procedures
for monitoring the prime vendor’s cost and performance. In addition, the Acting
Commander stated that the plan and procedures would address areas to include the
(1) validation of triwall invoices, (2) verification of fill rates, and (3) appointment of a
Government official to monitor accountability of Government-furnished material. Lastly,
the Acting Commander stated that Troop Support anticipates that all recommendations
will be fully implemented no later than December 31, 2011.

Our Response
The Acting Commander, Defense Logistics Agency Troop Support comments are
responsive. No additional comments are required.

A.4. We recommend that the Commander, Defense Logistics Agency Troop
Support:
       a. Perform a review of the contract administration of the prime vendor
subsistence contract for Afghanistan in light of (1) excessive delay in definitizing the
verbal change order of August 2005, (2) the payment of $454.9 million in airlift costs
without having a requirement for the service in the contract, (3) the agreement to
pay 100 percent of triwall provisional rates without documenting how the rates were
determined to be fair and reasonable, and (4) the lack of a quality assurance
surveillance plan and written procedures to monitor contractor costs and
performance.
       b. Initiate as appropriate any administrative actions warranted by the review.

Defense Logistics Agency Troop Support Comments
The Acting Commander, Defense Logistics Agency Troop Support agreed and stated that
Troop Support will perform a review of the contract administration of the prime vendor
subsistence contract for Afghanistan and will initiate, as appropriate, any administrative
actions warranted by the review by no later than December 31, 2011.

Our Response
The Acting Commander, Defense Logistics Agency Troop Support comments are
responsive. No additional comments are required.




                                            21

Finding B. Appropriation Funds Used for
FY-End Transportation, Triwall, and Storage
Costs Need Corrections
Troop Support personnel billed the Army about $56.5 million in transportation, triwall,
and storage costs incurred for FYs 2006 through 2009 to the incorrect FY appropriation
fund on the subsistence PV contract for Afghanistan. Most of the incorrect charges
resulted from a systemic problem with STORES, which precluded orders processed after
a FY ended from being charged to the prior FY. As a result, the incorrect charges created
the potential for the Army to incur possible Antideficiency Act violations.

Subsistence contracting officials became aware of the problem and initiated some
corrective action at the end of FY 2008. The corrective action, however, was not
completely effective because it did not include (i) reversing incorrect charges from earlier
FYs, (ii) ensuring that invoices with costs that crossed FYs were correctly processed, and
(iii) properly handling PV overpayments identified after a FY ended.

Appropriation Laws and Regulations
Federal agencies are required to spend appropriations within the time and amount
established by congress. Under section 1502(a), title 31, United States Code
(31 U.S.C. 1502[a] [2009]), commonly referred to as the “Bona Fide Needs Rule,” an
appropriation is available to pay expenses incurred during the time that the appropriation
is available for obligation.

The identification of a possible Antideficiency Act violation requires the initiation of a
preliminary review under DoD Regulation 7000.14-R, “DoD Financial Management
Regulation” volume 14, chapter 3. Paragraph 030402 of the regulation provides that
within 10 business days of receipt of a draft report that alleges a potential violation, the
Office of the Under Secretary of Defense (Comptroller), the Office of the Assistant
Secretary of the Military Department for Financial Management, or the Comptroller or
Senior Financial Manager for other DoD Components, as applicable, shall request that a
preliminary review of the potential violation be initiated within the next 30 days.

Army-Appropriated Funds Used
The Army reimbursed Troop Support for airlift, transportation (within Afghanistan), and
triwall costs using Operation and Maintenance, Army (OMA) appropriation12 funds. At
the same time, the Army used the Military Personnel, Army (MPA) appropriation to
reimburse Troop Support for the costs of storing GFM. Both are one year appropriations
12
  Before April 2007, the Army reimbursed Troop Support for transportation and related costs using the
Military Personnel, Army appropriation. In the U.S Army Audit Agency report, “A-2008-0037-FFM,”
February 12, 2008, it was reported that such costs should be charged to the OMA appropriation. The Office
of the Assistant Secretary of the Army (Financial Management and Comptroller) agreed and reversed
$378 million in transactions funds charged to the Military Personnel, Army appropriation. The Office also
stated that effective in April 2007, the Army would post the costs directly to the OMA appropriation.


                                                  22

 and generally must be available only for payment of expenses properly incurred during
 the period of availability or to complete contracts properly made within that period of
 availability.

 Sample of Transportation and Triwall Invoices
 Our review of $180.5 million in airlift and triwall invoices showed that Troop Support
 personnel did not correctly charge the proper FY appropriation for $6 million in airlift
 and triwall services incurred in FY 2007. The costs were incurred in September 2007 and
 resulted in charges of $6 million (invoiced costs of $5.6 million and Troop Support
 subsistence surcharges of about $446,000) to the FY 2008 OMA appropriation.

 Expanded Review
 After noting the improper charging of the $6 million, we expanded our review and found
 that additional PV billings for airlift, triwall, transportation, and GFM storage costs were
 not charged to the correct FY appropriation. The expanded review showed that Troop
 Support personnel did not charge about $56.5 million in airlift, triwall, transportation and
 storage services provided from FY 2006 to FY 2009 to the proper FY appropriation.
 Table 7 shows a breakdown of billings to the wrong appropriation.

             Table 7. Billings Charged to Wrong Fiscal Year Appropriation
                                                         FY      Appropriation     Charged
   Type of Cost          Dates Costs Incurred         Incurred     Charged         Amount
Triwalls                   Dec. 2005 – Sep. 2006      FY 2006    FY 2007 OMA       $2,700,053
Transportation         June 2006 - July 2006, and     FY 2006    FY 2007 OMA        7,760,969
                                        Sep. 2006
Transportation/                        Sep. 2006      FY 2006    FY 2007 OMA        4,925,368
 Triwalls
GFM Storage                            Sep. 2006      FY 2006    FY 2007 MPA          301,428
Airlift                   Aug. 2006 – Sep. 2006       FY 2006    FY 2007 OMA        3,425,264
Airlift                    May 2007 - June 2007       FY 2007    FY 2006 OMA          469,360
Airlift and Triwalls      Aug. 2007 – Sep. 2007       FY 2007    FY 2008 OMA        6,362,016
Transportation            Aug. 2007 – Sep. 2007       FY 2007    FY 2008 OMA       24,627,240
GFM Storage                            Sep. 2007      FY 2007    FY 2008 MPA          547,560
Airlift and Triwalls                   Sep. 2008      FY 2008    FY 2009 OMA        1,079,853
Transportation                        Nov. 2008       FY 2009    FY 2008 OMA        4,314,831
 Total                                                                            $56,513,942

 Billing for Triwall Services from December 2005 to September 2006
 Triwall services of approximately $2.7 million, incurred in FY 2006, were improperly
 charged to the FY 2007 OMA appropriation. From the inception of the contract until
 October 2006, the PV billed triwalls at 75 percent of the rates agreed to in contract
 modification 10. In December 2006, however, the PV requested payment of the


                                                23

25 percent of the rates withheld for payments through October 2006, an amount totaling
$2.7 million. The contracting officer agreed with the PV request and had the invoice for
the $2.7 million processed through STORES on December 21, 2006. The payment
resulted in a billing to the Army of $3 million (payment of $2.7 million and a subsistence
surcharge of about $335,000). The entire $3 million was charged to the FY 2007 OMA
appropriation, even though $2.7 million of the $3 million applied to costs incurred in
FY 2006 (December 2005 through September 2006). The remaining $300,000 applied to
costs incurred in FY 2007 (October 2006).

Transportation Services in June, July, and September 2006
About $7.8 million in transportation services provided within Afghanistan in FY 2006
were improperly charged to the FY 2007 OMA appropriation. The charges were related
to emergency airlift and special project costs incurred in June, July, and September 2006
whose invoices were processed through STORES in December 2006.

Transportation and Triwall Services in September 2006
About $4.9 million in transportation and triwall services provided in FY 2006 were
improperly charged to the FY 2007 OMA appropriation. The costs were incurred in
September 2006 and processed through STORES in December 2006.

Government-Furnished Material Storage Services for September 2006
About $301,000 in GFM storage services provided in FY 2006 were improperly charged
to the FY 2007 MPA appropriation. The costs were incurred in September 2006 and
were processed concurrently with GFM storage costs for October 2006 through STORES
in December 2006. The combined storage costs for both months were processed as one
purchase order and charged to the FY 2007 MPA appropriation.

Airlift Services for August and September 2006
About $3.4 million in airlift services from Sharjah, United Arab Emirates to Afghanistan
were incurred in FY 2006, but were improperly charged to the FY 2007 OMA
appropriation. The costs were incurred during August and September 2006 and
processed through STORES in October 2006.

Airlift Services for May and June 2007
About $469,000 in airlift services from Sharjah, United Arab Emirates to Afghanistan were
incurred in FY 2007 but were improperly paid from the FY 2006 OMA appropriation. In
May 2007, the PV notified the contracting officer that Troop Support had overpaid the PV
about $418,000 because of pricing problems that had occurred from January to April 2006
in FY 2006. As a result of the overpayments, the FY 2006 OMA appropriation was
incorrectly charged by about $469,000, comprised of $418,000 in airlift costs and a
$51,000 subsistence surcharge. The PV proposed to settle the overpayment by deducting
about $70,000 each from six weekly invoices for airlift costs in May and June 2007. The
contracting officer agreed and the deductions were made from invoices that were charged
to the FY 2007 OMA appropriation. Settling the overcharges with the PV was within the
contracting officer’s authority under FAR 33.210. What the contracting officer did not do,
in conjunction with the settlement, was to have DLA Finance, Troop Support refund the


                                            24

$469,000 in overpayments from the FY 2006 OMA appropriation and charge all airlift
services for May and June 2007 to the FY 2007 OMA appropriation. Handling the
overpayments this way resulted in the FY 2006 OMA appropriation being used to pay for
FY 2007 costs.

Airlift and Triwall Services for August and September 2007
About $6.4 million in airlift and triwall services provided in FY 2007 were improperly
charged to the FY 2008 OMA appropriation. The services were provided in
September 2007 and processed through STORES in October 2008.

Transportation Services for August and September 2007
About $24.6 million in transportation services were provided in Afghanistan in FY 2007
and improperly charged to the FY 2008 OMA appropriation. The costs were incurred in
August and September 2007 and processed through STORES in October 2007.

Government-Furnished Material Storage Services for September 2007
About $548,000 in GFM storage services were provided in FY 2007 but were improperly
charged to the FY 2008 MPA appropriation. Costs for the services were incurred in
September 2007 and processed through STORES in October 2007.

Airlift and Triwall Services for September 2008
About $1.1 million in airlift and triwall services were provided in FY 2008 but were
improperly charged to the FY 2009 OMA appropriation. The charges represented costs
for September 28 through 30, 2008, which were included as part of a PV’s invoice that
included costs that crossed FYs. The invoice detailed daily costs for the week ended
October 4, 2008 and resulted in billing to the Army of $2.3 million. The entire invoice
amount was processed through STORES in October 2008 and charged to the FY 2009
OMA appropriation. Only the $1.2 million in services provided from October 1
through 4, 2008, should have been charged to the FY 2009 OMA appropriation. The PV
contract was a 60-month fixed price, indefinite quantity contract. Consequently, the
contract was not a one year severable services contract that crosses FYs; therefore, the
bona fide need rule exception under section 2410a, title 10, United States Code does not
apply.

Transportation Services for November 2008
About $4.3 million in transportation services were provided in Afghanistan in FY 2009
but were improperly paid from the FY 2008 OMA appropriation. In September 2008, the
PV notified the contracting officer that it had overcharged Troop Support by about
$4.1 million for transportation costs incurred from May through August 2008 because
invoice charges for those months included incorrect minimum weights used to bill
helicopter transportation. The overcharges had caused a $4.3 million overcharge to
FY2008 OMA appropriation funds (comprised of $4.1 million overcharge and
subsistence surcharges of about $190,000). The contracting officer deducted the
overcharges from the PV’s transportation invoice for the first half of November 2008 and
had DLA Finance, Troop Support pay the PV $5 million instead of the $9.1 million that
was billed to the Army. However, the overcharge to the FY 2008 OMA appropriation


                                           25

was not returned, and the FY 2009 OMA appropriation was not charged for the
$4.3 million in transportation costs and surcharges for November 2008. As a result,
FY 2008 OMA appropriation funds were used to pay for costs incurred in FY 2009.

The $56.5 million may not include all improper billings as our review did not include a
complete review of all costs and Troop Support overpayments on the subsistence PV
contract for Afghanistan or reviews of any costs for other overseas subsistence contracts.

Processing Year-End Bills
Most of the services we identified that were not charged to the appropriate FY
appropriation fund involved transportation, triwall, and storage costs that occurred in one
FY, but whose purchase orders were processed through STORES and billed to the Army
in the subsequent FY. This was the case for the aforementioned $6 million for airlift and
triwall services incurred in FY 2007 but charged to FY 2008 OMA appropriation funds.
The $6 million represented costs and surcharges for the weeks ending
September 15, 2007, September 22, 2007, and September 29, 2007, whose purchase
orders were processed directly into STORES in October 2007.

When we discussed the problem with subsistence contracting officials in early October 2009,
they told us that when offline costs from one FY were processed directly through STORES
after that FY ended, systemic problems precluded STORES from recognizing that the costs
should be charged to that FY’s appropriation fund. Instead, STORES charged the costs to
the current FY appropriation fund, and the Army was unaware that the costs were actually
incurred in the prior FY. The officials further stated that they had taken corrective action at
the beginning of FY 2009. The corrective action involved having invoices for costs incurred
during FY 2008, but processed in FY 2009 entered directly into Troop Support’s Electronic
Business System, thereby bypassing STORES.

However, the corrective action did not include identifying offline costs for prior FYs that
were not charged to the appropriate FY appropriation fund. Subsistence contracting officials
should have identified those costs, coordinated with DLA Finance, Troop Support to return
funds that were incorrectly charged, and obtained funding from the correct FY appropriation.
Moreover, the corrective action did not make sure that airlift and triwall costs on invoices
that crossed FYs were charged to the correct FY appropriation. This was the case with the
airlift and triwall services for September 2008 previously discussed. Those costs were
incurred from September 28 through 30, 2008. The $1.1 million in costs and subsistence
surcharges incurred for those three days were part of invoiced costs that crossed FYs and
were included in $2.3 million charged to FY 2009 OMA appropriation funds.

We alerted subsistence contracting officials about the problem with the processing of
airlift and triwall invoices that crossed FYs in early October 2009 before the airlift and
triwall invoice covering the last week of FY 2009 was processed. That invoice included
costs for the week ended October 3, 2009. Consequently it included 4 days of costs
charged to FY 2009 OMA appropriation funds and 3 days of costs charged to FY 2010
OMA appropriation funds. The officials took immediate corrective action and made sure
that all the costs on the invoice were charged to the correct FY appropriations.


                                            26

Processing Vendor Overpayments
Part of the problem with costs not being charged to the correct FY appropriation was the
way that contracting officer resolved some vendor overpayments. We found two
instances where contracting officials resolved overpayments identified after the fact by
deducting the overpayments from current invoices. This is not a problem when the
current invoices are for the same FY in which the overpayments occurred. It is a
problem, however, when the services provided are for a different FY and the FY funds
from the prior year are not refunded to the Army. This was the case in our earlier
discussion of PV transportation billings for November 2008. All PV transportation costs
billed for the first half of November 2008 should have been charged to FY 2009 OMA
appropriation funds, and DLA Finance, Troop Support should have returned the
$4.3 million in FY 2008 OMA appropriation funds that were overbilled to the Army.

When we met with subsistence contracting officials in October 2009, we provided actual
and potential misbillings that we identified to date and asked that they determine the full
extent of costs on subsistence PV contracts that were not charged to the appropriate FY
appropriation and coordinate with the Army to correct the billings. As of June 2010,
however, the officials had not completed their review.

Recommendations, Management Comments, and Our
Response
B.    We recommend that the Commander, Defense Logistics Agency Troop
Support, direct subsistence officials to:

       1. Refund $56.5 million to the Army in appropriated funds identified by the
audit in Table 7 (page 23) that were not charged to the appropriate FY
appropriation.

       2. Bill $56.5 million to the Army in appropriated funds identified by the
audit in Table 7 (page 23) to the appropriate FY appropriation.

       3. Establish controls to ensure that future costs on subsistence prime vendor
contracts, to include refunds of prime vendor overpayments and costs on invoices
that cross FY, are charged to the appropriate FY appropriation.

        4. Conduct reviews of all subsistence prime vendor contracts to determine
whether costs were charged to the appropriate FY appropriation. If costs are
identified that were charged incorrectly, initiate corrective actions.

Defense Logistics Agency Troop Support Comments
The Acting Commander, Defense Logistics Agency Troop Support agreed and stated that
Defense Logistics Agency Finance implemented recommendations B.1 and B.2 in
November 2010, and processed billing adjustments correcting the FY appropriation
charges. The Acting Commander also stated that Troop Support will establish controls to
ensure future prime vendor costs that cross FYs and refunds of overpayments are charged
to the appropriate FY appropriation. Further, the Acting Commander stated that Troop


                                            27

Support will conduct reviews of all subsistence prime vendor contracts to determine
whether costs were charged to the appropriate FY appropriation. Lastly, the Acting
Commander stated that corrective actions would be taken on recommendations B.3 and
B.4 no later than December 31, 2011 if any costs are identified as being incorrectly
charged.

Our Response
The Acting Commander, Defense Logistics Agency Troop Support comments are
responsive. No additional comments are required.




                                          28

Appendix A. Scope and Methodology
We conducted this performance audit from February 2009 through October 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provided a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed subsistence PV solicitation SPM300-04-R-0323, September 3, 2004;
amendments 1 through 4 to the solicitation; PV contract SPM300-05-D-3130, June 3, 2005;
contract modifications P00001 through P00073; and four DCAA audit reports:
(1) Report 2191-2007M17200001-S1, “Supplement to Report on Audit of Price Adjustment
Claim for Food Spoilage,” September 17, 2007; (2) Report 2191-2008M27000001, “Report
on Audit of Supreme Foodservice AG’s Cost Proposal for Convoy Security,” June 6, 2008;
(3) Report 2191-2008M17200002, “Report on Audit of Equitable Adjustment Claim for
Expired Stock,” August 14, 2008; and (4) Report 2191-2008M17200001, “Report on Audit
of Equitable Adjustment Proposal for Change Related to Outbound Transportation Effort,”
December 19, 2008.

We reviewed Federal and DoD criteria regarding quality assurance and surveillance to
evaluate whether contract administration of the PV subsistence contract for Afghanistan
complied with the criteria. We conducted extensive research of Federal and DoD criteria
related to the Troop Support Subsistence PV program, contract quality assurance and
surveillance requirements, contract pricing and documentation, undefinitized contract
actions, and distribution of budgetary resources. The specific criteria reviewed included
United States code, FAR, DFARS, DoD instructions, DoD Financial Management
Regulations, and Troop Support guidance.

The various documents provide guidance on PV program management and controls for
processing subsistence transactions. We interviewed key personnel involved with the PV
program at Troop Support in Philadelphia, Europe, and Afghanistan. We evaluated the
controls over processing PV payments. We reviewed supporting documentation for PV
transactions, including delivery transaction receipts, and shipping manifests. We
analyzed data obtained from the Food Service Customer Business Unit in the Subsistence
Directorate, and Defense Logistics Agency Finance, Troop Support. Lastly, we reviewed
weekly, monthly, and quarterly PV reports.

Use of Computer-Processed Data
To assess the reliability of orders, receipts, and payments data from STORES, we talked
with Troop Support personnel about data quality control procedures and reviewed
relevant documentation. We determined that the data were sufficiently reliable for the
purposes of this report.




                                           29

Prior Coverage of Subsistence Prime Vendor Program
During the last 5 years, the Government Accountability Office, and the Department of
Defense Inspector General have issued no reports discussing the Subsistence PV
Program.




                                          30

Appendix B. Regulatory Guidance
Surveillance Requirements
FAR 46.103, “Contracting Office Responsibilities,” provides that contracting offices are
responsible for receiving a QASP from the requesting activity when contracting for
services. FAR 46.103 states: “[c]ontracting offices are responsible for receiving from
the activity responsible for technical requirements any specifications for inspection,
testing, and other contract quality requirements essential to ensure the integrity of the
supplies or services.”

According to FAR Subpart 46.4, “Government Contract Quality Assurance,” a QASP
should be prepared in conjunction with preparation of the statement of work and should
specify all work requiring surveillance and the method of surveillance. FAR subpart 46.4
states:
       Government contract quality assurance shall be performed at such times (including
       any stage of manufacture or performance of services) and places (including
       subcontractors’ plants) as may be necessary to determine that the supplies or services
       conform to contract requirements. Quality assurance surveillance plans should be
       prepared in conjunction with the preparation of the statement of work. The plans
       should specify–
            1. All work requiring surveillance, and
            2. The method of surveillance.

FAR 37.604, “Quality Assurance Surveillance Plans,” states: “[t]he Government may
either prepare the QASP or require the offerors to submit a proposed QASP for the
Government’s consideration in development of the Government’s plan.” The
requirements for quality assurance and QASPs are in FAR subpart 46.4.

Contract Pricing
FAR 15.406-1, “Prenegotiation Objectives,” states that prenegotiation objectives assist
the contracting officer in determination of fair and reasonable prices. The objectives are
to be based on the results of the contracting officer’s analysis, to include consideration of
all pertinent field pricing assistance, audit reports and technical analysis, fact-finding
results, independent Government cost estimates and price histories. In addition, the part
states the contracting officer shall establish prenegotiation objectives before the
negotiation of any pricing action, and that the scope and depth of the analysis supporting
the objectives should be directly related to the dollar value, importance, and complexity
of the pricing action.

FAR 15.406-3 requires the contracting officer to document in the contract file the
principal elements of the negotiated agreement to include the documentation of fair and
reasonable pricing.




                                                  31

Appendix C. Memorandum for Commander,
Defense Logistics Agency Troop Support




                   32

33

FOR OFFICIAL USE ONLY
          34
35

FOR OFFICIAL USE ONLY
          36
37

38

39

Appendix D. Commander, Defense Logistics
Agency Troop Support Response to
Memorandum




                    40

41

Defense Logistics Agency Troop Support Comments





                              42
43
44
45
       Final Report 

        Reference





     Page 27





46
       Final Report 

        Reference





     Page 23 





     Page 23





47
